No. 20-621

In the Supreme Court of the United States

DEANDRE ARTHUR STATEN, Petitioner,
v.
RONALD DAVIS, WARDEN, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 4,765 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: January 28, 2021
Respectfully submitted,
XAVIER BECERRA
Attorney General of California

SCOTT A. TARYLE
Supervising Deputy Attorney General
Counsel of Record
Counsel for Respondent
LA2020603299
63824388.docx

